RECEIVED

WAIVER

MAR 0 3 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Shirley Hirshauer

19-955

AQ Holdings, LLC, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as. Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Judge Thomas Ross

I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar t
Signatu

Fe

Date.

ary 11, 2020

(Type or print) Name

Elise Balkin Ice
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Office of the Attorney General of Maryland

Address

217 East Redwood Street, 22nd Floor

City & State
Phone

Baltimore, Maryland

(410) 230-3140

Zip
Email

21202

elise.ice@maryland.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Ms. Shirley Hirshauer, Mr. Stephen Brennan, Mr. Brooke Schumm, III

FILED
FEB 12 2020
OFFICE OF THE CLERK
SUPREME COURT U.S

BRIAN E. FROSH
Attorney General

KARL A. POTHIER
Principal Counsel

ELIZABETH F. HARRIS
Chief Deputy Attorney General

SHELLY E. MINTZ
Deputy Counsel

CAROLYN QUATTROCKI
Deputy Attorney General

ANTONIO V. RIVERA
Senior Assistant Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL

ELISE BALKIN ICE
Assistant Attorney General

DEPARTMENT OF JUVENILE SERVICES

February 12, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Shirley Hirshauer v. AQ Holdings, LLC, et al. (Case No. 19-955).

Dear Clerk:
I am submitting the enclosed Waiver pursuant to Supreme Court Rule 15.5
on behalf of Respondent Judge Thomas Ross.
Respectfully submitted,

se .lkin Ice
ssistant Attorney General

RECEIVED
c:

Ms. Shirley Hirshauer (w/ encl. at Florida address)
Mr. Stephen Y. Brennan, Esquire (w/ encl.)
Mr. Brooke Schumm, III, Esquiie (w/ encl.)

120 West Fayette Street ❖ Baltimore, Maryland, 21201
Telephone (410) 230-3135 ❖ Fax (410) 230-3143
Toll Free: 1 (888) 639-7499 x3135 ❖ TTY: 1 (800) 735-2258

MAR 0 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

